\

APPENDIX A

A-1.
FILED

*

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

AUG 21 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

BRETT EMMETT LLOYD,
Plaintiff-Appellant,
v.

JOHN GERHARD; et al.,

No. 19-35312
D.C. No. 3:17-cv-00582-MK
District of Oregon,
Portland
ORDER

Defendants-Appellees,
and
ANDREW PULVER; et al.,
Defendants.
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Lloyd’s motion to recall the mandate (Docket Entry No. 26) is granted. The
mandate is recalled for the limited purpose of considering the petition for rehearing
en banc.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Lloyd’s petition for rehearing en banc (Docket Entry Nos. 24 and 27Jis
denied.
Lloyd’s motion to publish the court’s memorandum (Docket Entry No. 24)

APPENDIX B

Br lNOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

APR 21 2020

FOR THE NINTH CIRCUIT
BRETT EMMETT LLOYD,

No.

Plaintiff-Appellant,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-35312

D.C. No. 3:17-cv-00582-MK

v.

MEMORANDUM*
JOHN GERHARD; et al.,
Defendants -Appellees,
and
ANDREW PULVER; et al.,
Defendants.
Appeal from the United States District Court
forthe District of Oregon
Ann L. Aiken, District Judge, Presiding
Submitted April 7, 2020**
Before:

TASHEMA, BYBEE, and WATFORD, Circuit Judges.

Oregon state prisoner Brett Emmett Lloyd appeals pro se from the district

--------- —~This"frispositionismoLappropriate~forpublication“and~is~not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

B-2
court’s judgment dismissing his 42 U.S.C. § 1983 action alleging malicious
prosecution claims. We have jurisdiction under 28 U.S.C. § 1291. We review de
novo. Dougherty v. City of Covina, 654 F.3d 892, 897 (9th Cir. 2011) (motion to
dismiss); Vess v. Ciba-Geigy Corp. USA, 317 F.3d 1097, 1102 (9th Cir. 2003)
(special motion to strike under anti-SLAPP statute). We may affirm on any basis
supported by the record, Thompson v. Paul, 547 F.3d 1055, 1058-59 (9th Cir.
2008), and we affirm.
The district court properly dismissed Lloyd’s malicious prosecution claims
against defendants Warner and the City of Beaverton because Lloyd failed to
allege facts sufficient to show that the criminal fraud charges were terminated in
Lloyd’s favor. See Awabdy v. City ofAdelanto, 368 F.3d 1062, 1066-68 (9th Cir.
2004) (setting forth the elements of a § 1983 malicious prosecution claim;_a
dismissal in the interest of justice is a terminationin the plaintiff s favor only if it
“reflects the opinion of the prosecuting party or the court that the action lacked
merit or would result in a decision in favor of the defendant”); Perry v. Rein, 168
P.3d 1163, 1170-71 (Or. App. 2007) (setting forth the elements ofthe state tort of
malicious prosecution- a dismissal is favorable if it “it reflects adversely on the
merits of the underlying action” (citation and internal quotation marks omitted)).
For the same reasons, dismissal of Lloyd’s malicious prosecution claims against
defendant Gerhard was proper.

2

19-35312

Br3
The district court properly granted defendant Ball’s special motion to strike
Lloyd’s second amended complaint under Oregon’s anti-SLAPP statute because
Lloyd failed to show a probability of prevailing on the merits. See Schwern v.
Plunkett, 845 F.3d 1241, 1245 (9th Cir. 2017) (setting forth required analysis under
Oregon’s anti-SLAPP statute); see also Or. Rev. Stat. § 31.150(3); Awabdy, 368
F.3d at 1066-68; Perry, 168 P.3d at 1170-71.
The district court did not abuse its discretion in denying Lloyd’s motion to
enter default judgment. See Eitel v. McCool, 782 F.2d 1470, 1471-72 (9th Cir.
1986) (setting forth standard of review and factors for determining whether to enter
default judgment).
Lloyd forfeited his opportunity to appeal the magistrate judge’s denial of his
motion for leave to-amend his complainta third time because Lloyd failed to file
timely 'objections with the'district judge." See Simpson V. Lear Astronics Carp., 77
F.3d 1170,1174 (9th Cir. 1996) (“[A] party who fails to file timely objections to a
magistrate judge’s nondispositive order with the district judge to whom the case is
assigned forfeits its right to appellate review of that order.”).
All pending motions are denied.
AFFIRMED.

3

19-35312

r'

APPENDIX C

Case 3:17-cv-00582-MK Document79

Filed 01/02/19

Page lot 11

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON

BRETT EMMETT LLOYD,

Case No. 3:17-cv-00582-MK

Plaintiff,
.

FINDINGS AND
RECOMMENATION

v.
JOHN GERHARD, JEFFREY WARNER,
ANNALISA BALL, CITY OF BEAVERTON,
a municipal Corporation of the State of Oregon,
Defendants.
KASUBHAI, Magistrate Judge:
Plaintiff, an inmate at Eastern Oregon Correctional Institution appearing pro se, alleges
claims of malicious prosecution against defendants under 42 U.S.C. § 1983 and Oregon law. The
City of Beaverton and Officer Jeffrey Warner (collectively referred to as the Beaverton
defendants)' movefor dismissal-under Federal Ruieof CiviLPfoceduTe T2(h)"(6)7and^innaisa
Ball moves to strike plaintiffs claims under Oregon’s anti-Strategic Lawsuit Against Public
Participation (anti-SLAPP) statute. I recommend that defendants’ motions be granted and
plaintiff s claims be dismissed with prejudice.
1 - FINDINGS AND RECOMMENDATION

C:l.

Case 3:17-cv-00582-MK Document 79 Filed 01/02/19

Page l ot 11

R A CKGROUND
According to the allegations in plaintiffs Second Amended Complaint, Annalisa Ball,
plaintiffs former wife, initiated divorce proceedings in late 2014 after the State of Oregon
brought criminal charges against plaintiff arising from the sexual exploitation and abuse of his
step-daughter. Sec. Am. Compl. fl 12, 1445(a) (ECF No. 13). Plaintiff alleges that during the
divorce proceedings, Ball’s attorney made an offer of settlement and warned plaintiff that if he
did not accept the offer, Ball would inform law enforcement officials that plaintiff had forged
Ball’s name on a 2012 auto loan. Id. 115(b).
Plaintiff did not accept the offer. Ball allegedly met with City of Beaverton police officer
Jeffrey Warner and claimed that plaintiff had forged her signature on 2012 auto loan documents.
Id.

18-19. In her complaint to the police, Ball apparently stated that she and plaintiff were still

married and that she did not know that her name was on the auto loan. Id. f 19. Plaintiff alleges
that Ball’s allegations of forgery were false and that she approved the loan via an electronic
signature. Id.

16-17.

Ofc. Warner allegedly forwarded the police report with the false information to the
Washington County District Attorney’s (DA) office. Sec. Am. Compl. 120. Ofc. Warner also
sent the DA’s office supplemental reports stating that he had “confirmed Brett Lloyd used
Annalisa Ball’s personal information (without her knowledge or consent) to include her social
security number and signature to complete a loan application.” Plaintiff maintains that those
statements were also false, i&fl 20, 22-24. - .

•

.....-.........

.........

■---...........

On February 20, 2015, a grand jury indicted plaintiff on charges of Aggravated Theft,
Forgery' irf theTIrst Degree Md^cOmputerxrimemrising from the alleged- forgery-of-the-autoloan documents. Ball apparently testified before the grand jury. Id. H 25.

2 - FINDINGS AND RECOMMENDATION

C-2.

Case 3:17-cv-00582-MK

Document 79

Filed 01/02/19

Page 3 of 11

On May 15, 2015, the State moved to dismiss the forgery charges against plaintiff “in the
best interest of justice” because plaintiff was facing a presumptive 300-month term of
imprisonment after he was convicted of the charges related to the sexual exploitation and abuse
of his step-daughter. Id. f 26; Lewis Decl. Ex. 1 (ECF No. 45-1).
In April 2017, plaintiff filed a pro se lawsuit in this Court alleging various claims against
numerous defendants. After plaintiff was ordered to amend his claims, he retained counsel and
filed a Second Amended Complaint alleging claims of malicious prosecution against the current
defendants. Shortly after the Second Amended Complaint was filed, plaintiff s counsel moved to
dismiss plaintiff’s claims with prejudice. Plaintiff opposed the dismissal and plaintiff was
allowed to proceed pro se.
DISCUSSION
Plaintiff maintains that the theft, and forgery charges against him were based on false
information provided by Ball and Ofc. Warner and lacked probable cause, and that deputy
district.attomey. (DDA)_Gerhard_!‘sought to use.the/forgery! prosecution to assistMs. Ball - an
alleged victim— in the divorce proceeding.” Sec: Am. Gompl./f 27-The Beaverton defendants move to dismiss for failure to state a claim, and Ball moves to strike plaintiff s claims on
grounds that her conduct is privileged under Oregon’s anti-SLAPP statute. Plaintiff opposes the
motions and seeks default judgment against DDA Gerhard and the opportunity to obtain
discovery.
_____ Initially. I address plaintiffs pending motion for default judgment against DDA Gerhard
(filed as a motion for summary judgment) and his motion for a stay of the proceedings pending
discovery by plaintiff.

.3^ BINDINGS AND_ RECOMMENDATION

C:3

Case 3:17-cv-00582-MK Document 79 Filed 01/02/19 Page 4 of 11
* i

In support of his.motion for default, plaintiff presents an Affidavit of Service indicating
that a process server attempted to serve DDA Gerhard on June 26,2018 by leaving a copy of the
summons and Second Amended Complaint with a receptionist at the Washington County DA’s
Office. Lloyd Decl. Ex. A (ECF No. 60). However, plaintiff presents no evidence that DDA
Gerhard was properly served to support entry of default or default judgment. Fed. R. Civ. P. 55.
First, plaintiff did not attempt to serve DDA Gerhard until June 2018, well past the time limit set
forth in Federal Rule of Civil Procedure 4 and almost one year after he fled the Second
Amended Complaint. Fed. R. Civ. P. 4(m). Second, plaintiff named DDA Gerhard as a defendant
in his individual capacity, and plaintiff presents no evidence that the receptionist who allegedly
accepted service at the DA’s office was authorized to do so on DDA Gerhard’s behalf as an
individual rather than in his capacity as a deputy district attorney. See Or. R. Civ. P. 7D(2),(3)(a).
Moreover, as noted in a previous Order, prosecutors generally enjoy absolute immunity
for actions related to the initiation of criminal proceedings, and, for the reasons explained below,
plaintiff does not state a claim for malicious prosecution in any event. Van de Kamp v. Goldstein,
555 U.S. 335, 343 (2009) (prosecutors are absolutely immune for conduct “intimately associated
with the judicial phase of the criminal process”); Milstein v. Cooley, 257 F.3d 1004, 1008 (9th
Cir. 2001) (absolute prosecutorial immunity “covers the knowing use of false testimony at trial,
the suppression of exculpatory evidence, and malicious prosecution”). Accordingly, default
judgment is not appropriate, and the motion for default should be denied.
-----

I further find that discovery is not necessary to resolve the pending motions to dismiss

and to strike. The Oregon anti-SLAPP statute generally requires a stay of discovery pending
resdlufidfTdf a_special”mdtldrrtdTtfiKerOY7RevrStater§73lTl52(2)7Hefe7'defendants’_motions

4 - FINDINGS AND RECOMMENDATION

C-^

Case 3:17-cv-00582-MK Document 79 Filed 01/02/19 Page 5 of 11

C-.5

are based on the pleadings and documents subject to judicial notice, and discovery would not aid
in their resolution. Defendant’s Motion for Stay is therefore denied.
A. Beaverton Defendants’ Motion to Dismiss
The Beaverton defendants move for dismissal on grounds that plaintiff fails to state a
cognizable claim for malicious prosecution under federal or state law, because plaintiff does not
and cannot allege that the forgery proceedings terminated in his favor. Alternatively, the
Beaverton defendants argue that probable cause is a complete defense to malicious prosecution,
no malice is alleged on the part of Ofc. Warner, no.municipal policy practice or custom is
alleged to support § 1983 liability against the City, and plaintiffs state law claim is barred for
failure to file a timely tort claim. Although I find all arguments persuasive for the reasons set
forth in the Beaverton defendants’ motion, plaintiffs failure to establish the favorable
termination of the forgery proceedings is dispositive and requires dismissal of his claims.
Under Rule 12(b)(6), a complaint is construed in favor of the plaintiff, and its factual
allegations are taken as true. Daniels-Hall v. Nat‘l Educ. Ass'n, 629 F.3d 992, 998 (9th Cir.__
2010). The court need not accept as true_“conclusory” allegations, unwarranted deductions of----fact, or unreasonable inferences. Id. Instead, “for a complaint to survive a motion to dismiss, the
non-conclusory ‘factual content,’ and reasonable inferences from that content, must be plausibly
suggestive of a claim entitling the plaintiff to relief.” Moss v. United States Secret Serv., 572
F.3d 962, 969 (9th Cir. 2009). In pro se cases particularly, the court must construe the complaint
liberally and afford the plaintiff “the benefit of any doubt.” Hebbe v. Pliler, 627 F.3d 338, 342
(9th Cir. 2010) (citation omitted). “Unless it is absolutely clear that no amendment can cure”
defects in the complaint, “a pro se litigant is entitled to notice of the complaint’s deficiencies and

5 - FINDINGS AND RECOMMENDATION

'

Case 3:17-cv-00582-MK Document 79 Filed 01/02/19

Page 6 ot 11

C-d.

an opportunity to amend prior to dismissal of the action.” Lucas v. Dep’t ofCorr., 66 F.3d 245,
248 (9th Cir. 1995) (per curiam).
To sustain a § 1983 claim for malicious prosecution, plaintiff must establish the state law
elements of malicious prosecution and show that defendants, while acting under “color of law”
intended to deprive plaintiff of a constitutional right 42 U.S.C. § 1983; Lacey v. Maricopa Cty.,
693 F.3d 896, 919 (9th Cir. 2012). Under Oregon law, malicious prosecution requires a plaintiff
to show: 1) ihe defendant initiated or prosecuted a judicial proceeding against the plaintiff; 2) the
proceeding terminated in the plaintiffs favor; 3) the defendant lacked probable cause to
prosecute the action; 4) the defendant acted with malice or with the “primary purpose other than
that of securing an adjudication of the claim”; and 5) the plaintiff suffered damages. Perry v.
Rein, 215 Or. App. 113, 125, 168 P.3d 1163 (2007); see also Mantia v. Hanson, 190 Or. App.
412,419-20, 79 P.3d 404 (2003). In the circumstances of this case, favorable termination
generally means that the charges were dismissed against plaintiff “in such a manner as to
indicate his innocence.” Awabdy v. City ofAdelanto, 368 F.3d 1062, 1068 (9th Cir. 2004). “[A]
dismissal in the interests of justice satisfies this requirement if it reflects the opinion ofthe

^

prosecuting party or the court that the action lacked merit[.]” Id.; see also Perry, 215 Or. App. at
130, 168 P.3d 1163 (explaining that the dismissal of claims must “reflect adversely on the merits
ofthe action” to meet the favorable termination element).
P laintiff cannot show that the theft and forgery proceedings terminated in his favor.
Although plaintiff alleged that the charges against him were dismissed with prejudice,, he failed,
to explain the reason why they were dismissed. According to a Motion for Judgment of
Dismiss'affiIMInCase>JbrCT50439CR“in Washingtop.-Countyrthe-State-‘elect[ed]not-to
procee d based upon the defendant’s anticipated sentences in C142407CR and C141194CR (300
6 - FINDINGS AND RECOMMENDATION

Case 3:17-cv-00582-MK Document 79 Filed 01/02/19 Page 7 of 11

month presumptive sentence); and therefore such dismissal is in the best interest of justice.”
Lewis Decl. Ex. I.1 In other words, the State dismissed the forgery charges because plaintiff
already faced a lengthy criminal sentence; the State’s dismissal of the charges in no way
reflected adversely on the merits of the prosecution’s case or otherwise implied plaintiff s
innocence.
Based on the undisputable facts of record, the forgery proceedings were not terminated in
plaintiffs favor, and he does not state a claim for malicious prosecution under either § 1983 or
state law. Plaintiff cannot cure this deficiency, and the opportunity for further amendment would
be futile. Accordingly, the Beaverton defendants’ motion to dismiss should be granted.
B. Defendant Ball’s Motion to Strike .
Ball moves to strike plaintiffs claims on grounds that her alleged conduct is protected
from suit under Oregon’s anti-SLAPP statute. Alternatively, Ball moves to dismiss for
insufficiency of service and failure to state a claim under Federal Rules of Civil Procedure
12(b)(5) and (6),
-------Oregon’s anti-SLAPP provisions “permit a defendant who is sued over certain-actions-taken in the public arena to have a questionable case dismissed at an early stage.” Staten v. Steel,
222 Or. App. 17, 27, 191 P.3d 778 (2008); see generally Or. Rev. Stat. §§ 31.150-.155. Under

1 This Court takes judicial notice of the Motion for Judgment of Dismissal and
emphasizes that consideration of it does not convert defendants’ Motion to D ismiss into a motion
for summary judgment, particularly_when plaintiff referencedJhe_dismissaIinhisJ3econd______
Amended Complaint. See Fed. R. Evid. 201(b)(2) (providing that a district court may take
judicial notice of adjudicative facts that “can be accurately and readily determined from sources
-whose-accuracy-cannot-reasonably-be questioned”),-In-re-Heritage-Bond-Litigrr-54-6 F-.-3d-667,---670 n.l (9th Cir. 2008) (noting that a court may take notice of relevant court documents filed in
other proceedings); see also United States v. Ritchie, 342 F.3d 903, 908 (9th Cir. 2003) (a court
may consider “documents attached to the complaint, documents incorporated by reference in the
complaint, or matters of judicial notice - without converting the motion to dismiss into a motion
for summary judgment”).
-7 — FINDINGS AND RECOMMENDATION------------------- .—:--------------- ------------------

01

Case 3:17-cv-00582-MK

Document 79

Filed 01/02/19

page e 01 x±

*

the statute, a defendant may bring a special motion to strike any claim in a civil action arising
from any “oral statement” made “in a judicial proceeding” or “in a place open to the public or a
public forum in connection with an issue of public interest”; or from any “other conduct in
furtherance of the exercise of the constitutional right of petition.. .in connection with a public
issue or an issue of public interest.” Or. Rev. Stat. § 31.150(2)(a),(c),(d). Under Oregon law, an
anti-SLAPP motion to strike is treated as a motion to dismiss, and “the moving party may not
nee d io present any evidence of its own.” Staten, 222 Or. App. at 31,191 P.3d 778; Or. Rev.
Stat. § 31.150(1); Gardner v. Martino, 563 F.3d 981, 986 (9th Cir. 2009) (discussing Oregon
anti-SLAPP statute).
“The court’s consideration of a special motion to strike is a two-step process .” Gardner,
563 F.3d at 986. The defendant has the “initial burden to show that the challenged statement is
within one of the categories of civil actions described” in the statute. Id.\ Or. Rev. Stat. §
31.150(3). “If the defendant meets this burden, the burden shifts to the plaintiff in the action to
establish that there is a probability that the plaintiff will prevail on the claim by presenting
substantial evidence to support a prima facie case. Or. Rev. Stat. § 31.150(3). If the plaintiff
fails to meet this burden, the court must grant the special motion and dismiss the claims “before
the defendant is subject to substantial expenses in defending against them.” Staten, 222 Or. App.
at 29,191 P.3d 778. Further, a defendant who prevails on an anti-SLAPP motion must be
awarded reasonable attorney fees and costs. Or. Rev. Stat § 31.152(3) (“A defendant who
prevails on a special motion to strike made under ORS 31.150 shall be awarded reasonable
attorney fees and costs.”) (emphasis added).
Here,

Ball’sconducTi"Sl:learlyprotected-byThe-anti-SLAPP-statutej-she-filed-a complaint

with a law enforcement officer and testified before a grand jury about plaintiffs alleged forgery.

8 - FINDINGS AND RECOMMENDATION

C-8

Case 3:17-cv-00582-MK Document 79 Filed 01/02/19 Page 9 of 11

“There can be no dispute that O.R.S. 31.150(2)(a) encompasses statements reporting wrongdoing
to police.” Zweizigv. Nw. Direct Teleservices, Inc., 2016 WL 5402935, at *3 (D. Or. Sept. 24,
2016) (citing cases).2 Plaintiff nonetheless argues that Ball’s statements are not protected
because they were false reports. While “[u]nlawful or criminal activities do not qualify as
protected speech or petition activities,” plaintiffs “mere allegation” that Ball made false
statements to Ofc. Warner is “insufficient to render her alleged actions unlawful as a matter of
law and outside the protection” of tire anti-SLAPP statute. Dwight R. v. Christy B., 212 Cal. App.
4th 697, 711-12, 151 Cal. Rptr. 3d 406,416 (2013); see also Zweizig, 2016 WL 5402935, at *2
(“Oregon courts look to California case law in construing Oregon’s anti-SLAPP statute because
Oregon’s law was modeled on California statutes”) (citation omitted). Thus, Ball has met her
burden under the statute, and the burden shifts to plaintiff to establish prima facie claims of
malicious prosecution against Ball. As a matter of law, he cannot.
First, plaintiff fails to allege facts suggesting that Ball and Ofc. Warner had a “meeting of
the minds” to deprive plaintiff of his constitutional rights to sustain a § 1983 malicious prosecution
claim. See Franklinv. Fox,- 312 F,3d 423, 441 (9th Cir. 2002). Plaintiffs conclusory allegations
do not imply the type of “conspiracy” or “joint action” that would render Ball’s actions under
“color of law” for purposes of § 1983 liability. Price v. Hawaii, 939 F.2d 702, 708-09 (9th Cir.
1991) (conclusory allegations of conspiracy are insufficient).
Second and more importantly, plaintiff cannot establish a necessary element of malicious
prosecution - that the "criminal proceedings initiated by Ball were terminated in his favor. See
Mantia, 190 Or. App. at 419-20, 79 P.3d 404 (a claim of malicious prosecution requires the
plaintiff to establish that the underlying prosecution terminated in his or her favor). As explained
2 Moreover, Ball has absolute immunity from any § 1983 claim based on her grand jury
testimony. Rehbergv. Paulk, 566 U.S. 356,369 (2012).
9- FINDINGS AND RECOMMENDATION

C'S

Case 3:17-cv-00582-MK Document 79 Filed 01/02/19

Page 10 of 11

above, the State elected not to pursue the theft and forgery charges against plaintiff because he
faced a presumptive 300-month sentence in other criminal proceedings. Thus, the State’s
dismissal of the theft and forgery charges did not indicate plaintiff s innocence or- reflect
adversely on the merits of the charges. Consequently, plaintiff fails to meet his burden and this
Court must grant Ball’s motion to strike and award Ball her reasonable attorney fees. Or. Rev.
Stat. § 31.150(1) (“The court shall grant the motion unless the plaintiff establishes.. .that there is
_
|
LIKi, .
rl 11
iX Ui UUCHJillLY Ulai UlU piCUliLlXl Will

r\»-* fka
,5\ (omnViOOlC1
V/ll t.UW Vlu.un. } ^wui^wuwiu

C'DO nJ 0/1 7/7 R'
o

31.152(3).
Generally, claims are dismissed without prejudice if a special motion to strike is granted.
Id. § 31.150(1). In this case, dismissal of plaintiffs claims with prejudice is appropriate.
Plaintiffs Second Amended Complaint fails to state a claim for malicious prosecution, and no
further amendment or discovery can change the fact that the criminal theft and forgery
proceedings did not terminate in plaintiff s favor.
ORDER
Plaintiff s Motion for StayjBCF No. 64) is DENIEDJ’laintiffs Motions to Clarify and
Amend Summons, to Preserve Evidence, and for Clarification (ECF Nos. 56, 62, 78) are
DENIED AS MOOT.
RECOMMENDATION
Plaintiffs Motion for Default Judgment (filed as a Motion for Summary Judgment) (ECF
No. 59) should be DENIED.
The City of Beaverton and Officer Warner’s Motion to Dismiss (ECF No. 44) should be
'GRANTEDTahd'plaihtiff sclaims against them should be"DTSMTSSED'WITH PREJUDICE:
Annalisa Ball’s Special Motion to Strike (ECF No. 53) should be GRANTED, plaintiff s claims

10 - FINDINGS AND RECOMMENDATION

C-/0

Case 3:17-cv-00582-MK Document 79

Filed 01/02/19

Page 11 of 11

againstBall should be DISMISSED WITH PREJUDICE, and Ball should be awarded her
reasonable attorney fees.
This recommendation is not an order that is immediately appealable to the Ninth Circuit
Court of Appeals. Any notice of appeal pursuant to Federal Rule of Appellate Procedure 4(a)(1)
should not be filed until entry of the district court’s judgment or appealable order. The parties
shall have fourteen (14) days from the date of service of a copy of this recommendation within
which to file specific written objections with the court. If an objection is filed, any response to
the objection is due within fourteen (14) days from the date of the objection. See Fed. R. Civ. P.
72, 6. Parties are advised that the failure to file objections within the specified time may waive
.the right to appeal the District Court’s order. Martinez v. Ylst, 951 F.2d 1153 (9th Cir. 1991).
DATED this 2nd day of January 2019.
s/ Mustafa T. Kasubhai_____
MUSTAFA T. KASUBHAI
United States Magistrate Judge

1 !_=_ FINDINGS AND RECOMMENDATION

C: W

Case 3:17-cv-00582-MK

Document 85

Filed 03/31/19

Page 1 of 2

i

I
?
t

i
i

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

BRETT EMMETT LLOYD,

Case No. 3:17-cv-00582-MK
ORDER

Plaintiff,
v.
JOHN GERHARD, JEFFREY WARNER,
ANNALISA BALL, CITY OF BEAVERTON,
a municipal Corporation of the State of Oregon,
Defendants.

AIKEN, District Judge:
Magistrate Judge Mustafa Kasubhai filed his Findings and Recommendation
(“F&R”) (doc. 79) recommending that (i) Plaintiffs Motion for Default Judgment (filed
as a Motion for Summary Judgment) (doc. 59) be denied; (ii) the City of Beaverton
and Officer Warner’s Motion to Dismiss (doc. 44) be granted and Plaintiffs claims
against them be dismissed with prejudice; and (iii) Annalisa Ball’s Special Motion to
Strike (doc. 53) be granted and Plaintiffs claims against her be dismissed with
prejudice, with Ball being awarded her reasonable attorney fees. Plaintiff then timely

Page 1 — ORDER

Case 3:17-cv-00582-MK

Document 85

Filed 03/31/19

Page 2 of 2

filed objections to the F&R (doc. 82). The matter is now before me. See 28 U.S.C. §
636(b)(1)(B) and Fed. R. Civ. P. 72(b). When either party objects to any portion of a
magistrate judge’s F&R, the district court must make a de novo determination of that
portion of the magistrate judge’s report. See 28 U.S.C. § 636(b)(1); McDonnell Douglas
Corp. v. Commodore Business Machines, Inc., 656 F.2d 1309, 1313 (9th Cir. 1981),
cert denied, 455 U.S. 920 (1982). Based on my review of the F&R and the documents
in the case, I find no error in Judge Kasubhai’s F&R and Plaintiffs objections do not
undermine Judge Kasubhai’s analysis. Thus, I adopt the F&R (doc. 79) in its entirety.
Accordingly, (i) Plaintiffs Motion for Default Judgment (filed as a Motion for
Summary Judgment) (doc. 59) is DENIED; (ii) the City of Beaverton and Officer
Warner’s Motion to Dismiss (doc. 44) is GRANTED and Plaintiffs claims against
them are DISMISSED WITH PREJUDICE; and (iii) Annalisa Ball’s Special Motion
to Strike (doc. 53) is GRANTED and Plaintiffs claims against her are DISMISSED
WITH PREJUDICE, and Ball is awarded her reasonable attorney fees.
IT IS SO ORDERED.
Dated this

day of March, 2019.

kJ
Ann Aiken
United States District Judge

Page 2 — ORDER

Additional material
from this filing is
available in the
Clerk's Office.

